No.
In the Supreme Court of the United States

John E. Reardon, Petitioner, Pro Se
v
Officer Leason & Simon of Runnemede, Andrew Rossetti, Karen Caplan,
Kevin Walshe, James Farmer and Frank Soltis, Howard Gilfert, Warren Faulk,
Judges Joseph Greene and Isaiah Steinberg, James Mulvihill, D.Sgt, Bruce
Dawson, Appellate Judges Gaukin, Kestin, Hayden, Payne and Ashrafi, Judges
Wells, Freeman, Pugliese and Ragonese and Ms. Martha Shaw.
On Petition for a Writ of Certiorari
To the United States Cour of Appeals
For the Third Circuit

I, John E. Reardon, Hereby state, attest and affirm before Almighty God as
my witness that this petition of certiorari is only 9000 Words in Length.

John E. Reardon, Pro Se
1 Joans Lane
Berlin, N.J. 08009-1516
Home/Fax: 856-753-5116
Cell:
856-417-4131

i

Dated** August 22„ 2020

6

<^ohn E. Reardon petitioner, pro se j

